HHS/OIG-Audit--"Audit of Flagship Convalescent Center Skilled Nursing Facility, Newport Beach, California, (A-04-96-01150)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Flagship Convalescent Center Skilled Nursing Facility, Newport Beach, California," (A-04-96-01150)
April 8, 1997
Complete
Text of Report is available in PDF format (829 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the audit was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1, 1995 through March 31, 1996.
The Operation Restore Trust team questioned $287,664 of the $1,474,634 in Medicare charges reported for the 40 sample
beneficiaries in our audit. This amount consisted of $253,202 which was not reasonable or necessary, $30,713 of charges
which were not properly documented, and $3,649 for services which were not covered. Therefore, we are recommending an adjustment
of the above charges. In addition, we request that a focused review of all rehabilitative therapies and the physician orders
for these therapies be conducted by the fiscal intermediary and the State agency in order to recoup overpayments made to
this skilled nursing facility and to implement corrective action by the facility.